   April 3, 2002




Defense
Infrastructure
Bulk Fuel Infrastructure Military
Construction Project Review
Process: Air Force
(D-2002-077)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
 Additional Copies

 To obtain additional copies of this audit report, visit the Inspector General, DoD,
 Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
 Distribution Unit of the Audit Followup and Technical Support Directorate at (703)
 604-8937 (DSN 664-8937) or fax (703) 604-8932.

 Suggestions for Audits

 To suggest ideas for or to request future audits, contact the Audit Followup and
 Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
 604-8932. Ideas and requests can also be mailed to:

                OAIG-AUD (ATTN: AFTS Audit Suggestions)
                  Inspector General, Department of Defense
                     400 Army Navy Drive (Room 801)
                         Arlington, VA 22202-4704

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
 writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
 identity of each writer and caller is fully protected.




Acronyms
AFB                   Air Force Base
AFRC                  Air Force Reserve Command
DESC                  Defense Energy Support Center
DLA                   Defense Logistics Agency
MAJCOM                Major Command
MILCON                Military Construction
MR&E                  Maintenance, Repair, and Environmental
SCP                   Service Control Point
                        Office of the Inspector General, DoD
Report No. D-2002-077                                                         April 3, 2002
   Project No. D1999CG-0088.007

               Bulk Fuel Infrastructure Military Construction
                     Project Review Process: Air Force

                                  Executive Summary

Introduction. This report is one in a series that addresses the accuracy and reliability of
maintenance, repair, environmental (MR&E), and military construction (MILCON)
requirements for bulk fuel storage and delivery systems infrastructure. The audit
reviewed four Air Force MILCON projects valued at $19.5 million and 30 Air Force
MR&E projects valued at $6.6 million. The Defense Energy Support Center, Defense
Logistics Agency, provides fuel to DoD customers and is responsible for budgeting and
funding MILCON and MR&E projects at all DoD fuel terminals.

Objectives. Our overall objective was to evaluate the accuracy and reliability of DoD
MR&E and MILCON requirements for bulk fuel storage and delivery systems
infrastructure. Specifically, this audit evaluated MR&E and MILCON project
requirements at Eglin Air Force Base, Florida and McChord Air Force Base, Washington.
We also reviewed the adequacy of the management control program as it applied to the
audit objective.

Results. Air Force installation and major command personnel approved requirements at
the activities visited for 30 bulk fuel-related MR&E projects. Project requirements were
accurate and necessary. However, MR&E projects were not reviewed, approved, and
prioritized by an Air Force Service Control Point before being submitted to the Defense
Energy Support Center for funding approval in accordance with DoD regulations. The
Air Force did not have a Service Control Point for reviewing fuel-related infrastructure
requirements until October 1, 2001, when the Air Force Petroleum Office was
established. Air Force Petroleum Office personnel stated that they planned to implement
procedures for reviewing, approving, and prioritizing Air Force MR&E project
requirements in accordance with DoD guidance.

Air Force installation and major command personnel approved and validated
requirements for three bulk fuel-related MILCON projects at McChord Air Force Base
and Hurlburt Field, Eglin Air Force Base, valued at $17 million. However, requirements
for a $2.5 million bulk fuel storage MILCON project at Duke Field, Eglin Air Force
Base, were inaccurate and unsupported. As a result, Air Force Reserve Command
personnel submitted inaccurate and unsupported MILCON project requirements to the
Installation Planning and Review Board, Defense Energy Support Center, for funding
consideration. The Air Force has taken corrective action to properly identify and validate
the fuel-related MILCON project requirement at Duke Field. In October 2001,
Headquarters, Air Force Reserve Command submitted a new Military Construction
Project Data form (DD Form 1391) that accurately documented the Duke Field
requirement. We believe that the revised form clearly stated the minimum fuel
requirement to be supported by the MILCON project and gave the Defense Energy
Support Center the accurate and necessary data for determining whether the infrastructure
request should be considered for funding approval. However, unless the Air Force takes
corrective action to improve the requirements validation process, nonessential or
unnecessary projects could be considered for future funding. For details of the audit
results, see the Finding section of the report. The management controls that we reviewed
were not effective in that a material management control weakness was identified. See
Appendix A for details on the management control program. See Appendix C for details
on the validated MILCON project requirements.

Summary of Recommendations. We recommend that the Civil Engineer, Eglin Air
Force Base, and the Commander, Air Force Reserve Command establish policies and
procedures to implement Air Force guidance to document that MILCON project
requirements are properly reviewed and validated. We recommend that the Commander,
Air Force Petroleum Office, establish procedures to validate future MILCON project
requirements in accordance with DoD policies. We also recommend that the Director,
Defense Energy Support Center, modify existing procedures to require the Air Force
Petroleum Center to review and approve bulk fuel-related MILCON and MR&E projects
before the projects are approved for funding.

Management Comments. The Air Force and the Defense Logistics Agency concurred
with the report recommendations and stated that all new procedures will be implemented
before August 31, 2002. A discussion of the management comments is in the Finding
section of the report, and the complete text is in the Management Comments section.




                                           ii
Table of Contents

Executive Summary                                                          i


Introduction
     Background                                                            1
     Objectives                                                            2

Finding
     Validation of Bulk Fuel Storage Military Construction Requirements   3

Appendixes
     A. Audit Process
           Scope                                                           8
           Methodology                                                     8
           Management Control Program Review                               9
           Prior Coverage                                                 10
     B. Policy Guidance                                                   11
     C. Air Force Validated Bulk Fuel-Related MILCON Project
           Requirements                                                   13
     D. Report Distribution                                               15

Management Comments
     Air Force Petroleum Office                                           17
     Air Force Reserve Command                                            18
     Eglin Air Force Base                                                 20
     Defense Logistics Agency                                             21
Background
    This report is one in a series being issued by the Inspector General, DoD,
    addressing DoD maintenance, repair, environmental (MR&E), and military
    construction (MILCON) requirements for bulk fuel storage and delivery systems
    infrastructure (storage tanks, pipelines, dispensing facilities, hydrants, etc.). The
    Defense Energy Support Center (DESC), Defense Logistics Agency (DLA), is
    responsible for budgeting and funding MR&E and MILCON projects for DoD
    bulk fuel terminals worldwide.

    In 1991, DoD Program Budget Decision 735 authorized the transfer of MILCON
    funding authority to DLA for fuel-related infrastructure on military installations.
    Actual transfer of the funding responsibilities, however, was managed in two
    phases. The period from 1993 through 1996 was characterized by very low fuel-
    related MILCON expenditures. During that period, when the Services would
    have historically spent an average of $66 million per year, DLA averaged only
    $17 million. Low funding levels over an extended period of time precipitated
    infrastructure deterioration to the point that environmental issues became a
    concern. Additionally, the United States changed from a forward-deployed force
    to one based largely in the continental United States. Therefore, an enhanced en
    route refueling infrastructure to support worldwide deployment of U.S. forces was
    needed to meet timeline requirements for a two major theater war strategy.
    Consequently, there was a growing demand for MILCON and MR&E projects
    supporting infrastructure.

    In 1997, the Office of the Deputy Under Secretary of Defense (Logistics)
    completed a study on DoD fuels MILCON funding. The study identified
    114 MILCON projects totaling $1.5 billion in fuel-related MILCON requirements
    to meet environmental, operational, and strategic planning objectives for the
    proposed Future Years Defense Program (FYs 1999 through 2003). During
    FY 1998 budget considerations, the transfer of MILCON authority to DLA
    created a funding issue because the Defense budget did not provide for increased
    funding for DLA. For FY 2000, DLA funded and approved $101.2 million for
    five projects. For the FY 2001 President’s Budget to Congress, DLA
    programmed 14 projects with an estimated cost of $168 million.

    DESC was responsible for DoD fuel inventory management, including
    procurement and sales, and environmental oversight. DLA funded fuel-related
    infrastructure requirements from two different funding sources. Maintenance and
    repair projects were funded through the Defense Working Capital Fund, which is
    a revolving fund that is continually replenished by a DLA surcharge that is added
    to the sale price of fuel. Major construction projects were funded from the DLA
    allocation of MILCON appropriations.

    The Military Departments were responsible for operating bulk fuel facilities under
    their cognizance. The Military Departments were also responsible for reviewing,
    validating, and prioritizing MR&E and MILCON projects before submitting the
    projects to DESC for review and funding approval. DoD Directive 4140.25,
    “DoD Management Policy for Energy Commodities and Related Services,”
    April 20, 1999, prescribes DoD policy for energy and related programs (for
    example, petroleum, natural gas, coal, and propellants). DoD 4140.25-M,

                                          1
     “DoD Management of Bulk Petroleum Products, Natural Gas, and Coal,”
     June 1994, implements DoD Directive 4140.25, prescribes policy guidance, and
     assigns functional responsibilities for integrated materiel management of bulk
     petroleum products and associated bulk fuel storage facilities. Air Force
     Instruction 32-1021, “Planning and Programming of Facility Construction
     Projects,” May 12, 1994, provides guidance for developing facilities through the
     use of MILCON and minor construction. Air Force Engineering Technical Letter
     99-6, “Programming Fuels Projects,” December 10, 1999, provides guidance to
     civil engineering managers who program and manage fuel-related MR&E, minor
     construction, and MILCON projects where funding is the responsibility of the
     DESC. See Appendix B for a discussion of the DoD and Air Force policy
     guidance.


Objectives
     The overall objective was to evaluate the accuracy and reliability of DoD MR&E
     and MILCON requirements for bulk fuel storage and delivery systems
     infrastructure. Specifically, this audit evaluated MR&E and MILCON project
     requirements at McChord Air Force Base (AFB), Washington, and Eglin AFB,
     Florida. We also reviewed the adequacy of the management control program as it
     applied to the audit objective. See Appendix A for a discussion of the audit scope
     and methodology, prior coverage related to the audit objective, and the review of
     the management control program.


Maintenance, Repair, and Environmental Projects
     Air Force installation and major command (MAJCOM) personnel stated that they
     approved and validated requirements for the following 30 bulk fuel-related
     MR&E projects, valued at $6.6 million, at the activities visited:

             •   11 MR&E projects, valued at $4.6 million, at McChord AFB; and

             •   19 MR&E projects, valued at $2 million, at Eglin AFB.

     We determined that the project requirements were accurate and necessary.
     However, MR&E projects were not reviewed, approved, and prioritized by an
     Air Force Service Control Point (SCP) before being submitted to the DESC for
     funding approval in accordance with DoD 4140.25-M. The Air Force did not
     have an SCP for reviewing fuel-related infrastructure requirements until
     October 1, 2001, when the Air Force Petroleum Office was established. Air Force
     Petroleum Office personnel stated that they planned to implement procedures for
     reviewing, approving, and prioritizing Air Force MR&E project requirements in
     accordance with DoD guidance.




                                         2
            Validation of Bulk Fuel Storage Military
            Construction Requirements
            Air Force installation and major command personnel approved and
            validated requirements at McChord AFB and Hurlburt Field, Eglin AFB,
            for three bulk fuel-related MILCON projects, valued at $17 million. The
            project requirements were accurate and necessary. However, requirements
            for an additional $2.5 million bulk fuel storage MILCON project at Duke
            Field, Eglin AFB, were inaccurate and unsupported. This occurred
            because Eglin AFB; Headquarters, Air Force Reserve Command (AFRC);
            and Air Force SCP personnel did not validate the project requirements in
            accordance with Air Force and DoD guidance. As a result, AFRC
            personnel submitted inaccurate and unsupported MILCON project
            requirements to the Installation Planning and Review Board at the
            Defense Energy Support Center for funding consideration. During the
            audit, Air Force personnel took corrective action to properly identify and
            validate the project. However, unless the Air Force takes corrective action
            to improve the requirements validation process, nonessential or
            unnecessary projects could be considered for future funding.


Bulk Fuel-Related Military Construction Projects Reviewed
     Headquarters, Air Mobility Command, had one MILCON project at McChord
     AFB; and Headquarters, Air Force Special Operations Command, had two
     MILCON projects at Hurlburt Field, Eglin AFB. MAJCOM and installation
     personnel properly reviewed and validated the bulk fuel-related MILCON
     project requirements in accordance with Air Force Instructions and Engineering
     Technical Letter 99-6. See Appendix C for a more detailed discussion of the
     three MILCON projects.

     Headquarters, AFRC, located at Robins AFB, Georgia, was the MAJCOM for the
     919th Special Operations Wing at Duke Field, Eglin AFB. AFRC requirements
     for a $2.5 million bulk fuel storage MILCON project at Duke Field were
     inaccurate and unsupported. AFRC personnel were responsible for reviewing,
     validating, and prioritizing all fuel-related MILCON project requirements for
     AFRC installations.


Eglin AFB Bulk Fuel Storage MILCON Project
     Eglin AFB had two above ground, 60,000-gallon bulk fuel storage tanks at Duke
     Field. The tanks were approximately 40 years old and had deteriorated to the
     point that Eglin received environmental noncompliance citations from the Florida
     Department of Environmental Management and the Environmental Protection
     Agency.



                                         3
Installation Personnel Initiated MILCON Project. Eglin AFB personnel
initiated a MILCON project requirement at Duke Field to construct two
2,500-barrel (210,000 gallons) above ground jet fuel storage tanks with all
necessary support equipment and facilities and also to demolish the old facility.
The MILCON project cost was estimated at $2.5 million, and the Military
Construction Project Data form (DD Form 1391) justified the requirement based
on environmental concerns and a change in mission. Eglin AFB civil engineering
personnel submitted the project to Headquarters, AFRC and DESC in FY 1993
for the DLA FY 1997 MILCON program. The project remained unfunded in the
DLA MILCON program as of November 2001 because of higher priority projects.

Inaccurate Project Requirement. DoD Directive 4140.25 states that the
Components shall minimize inventories consistent with peacetime and
contingency needs. The Air Force Engineering Technical Letter 99-6 states that
MAJCOMs should “request only the minimum project scope necessary to do the
job. DESC realizes that the Services can program projects without the
compromise needed when funds are constrained.” Eglin AFB personnel provided
sufficient documentation and data to support the requirement for a new fuel
storage complex at Duke Field based on environmental concerns. However, the
MILCON project requirement for two 2,500-barrel storage tanks was inaccurate
and unsupported. Project documentation justified the storage requirement based
on a change in mission. Installation and MAJCOM personnel stated that the
justification for the storage requirement was specified in Air Force and military
guidance.

        Documented Project Justification. The FY 2000 MILCON project
requirement increased the bulk fuel storage capacity at Duke Field from
approximately 120,000 gallons (two 60,000-gallon tanks) to 210,000 gallons
(two 2,500-barrel tanks) based on a change in mission. The DD Form 1391
stated that the mission conversion from the AC-130A to the MC-130E aircraft
would require an increase in bulk fuel storage capacity. Eglin AFB completed
the airframe conversion in February 2000, and the MILCON project requirement
was submitted for funding consideration in June 2000. However, a comparison
of fuel issues and receipts for Duke Field for FYs 1999 and 2000 indicated a
6.5 percent decrease in fuel usage and did not justify the requirement for an
increase in bulk fuel storage.

        Installation and MAJCOM Personnel Provided Additional Project
Justification. Eglin AFB Civil Engineer personnel stated that the Air Force
Reserves Command Handbook 32-1001 dictates the 5,000-barrel bulk fuel storage
MILCON requirement for the C-130 mission at Duke Field. MAJCOM personnel
stated that the fuel storage increase was based on Military Handbook 1022-A
requirements for a minimum of two 2,500-barrel fuel tanks at each installation.
DESC personnel stated that they rely on information documented on the
DD Form 1391, but do not approve or validate MILCON projects solely on the
basis of requirements or specifications documented in military handbooks or
Service instructions.




                                    4
MILCON Project Requirements Were Not Validated
    Eglin AFB; Headquarters, Air Force Reserve Command; and SCP personnel did
    not validate the project requirements in accordance with Air Force and DoD
    guidance. DoD guidance requires that the SCP review and validate MILCON
    projects. Air Force guidance requires that MAJCOMs and installations validate
    MILCON project requirements.

    MAJCOM and Installation MILCON Project Review and Validation. Eglin
    AFB and AFRC headquarters engineering and logistics personnel did not validate
    the Duke Field bulk fuel storage MILCON project requirement. Air Force
    Instruction 32-1021 and Engineering Technical Letter 99-6 both require
    MAJCOM review of MILCON projects. The Air Force instruction also requires
    that installation and MAJCOM personnel validate MILCON projects. Neither
    MAJCOM nor installation personnel could provide support for the requirement to
    increase bulk fuel storage at Duke Field on the basis of a mission change. The
    initial DD Form 1391 documented the requirement for increased storage and was
    submitted to DESC in 1993 when installation personnel were planning for the
    mission change. The DD Form 1391 was revised in March 1995 and in
    June 2000, at which time the mission change was complete; however, the
    requirement for two 2,500-barrel fuel tanks to support the mission change was
    never properly validated. Furthermore, DoD 4140.25-M states that fuel
    inventories are determined from previous year fuel issue data, and any requested
    fuel increase of more than 10 percent requires further justification. AFRC
    headquarters personnel demonstrated a decrease of 6.5 percent in fuel issues for
    Duke Field from FY 1999 to FY 2000. Therefore, the mission change did not
    support the requirement to increase bulk fuel storage at Duke Field by almost
    100 percent. Finally, although MAJCOM personnel stated that they validated the
    MILCON requirement, they could not demonstrate that their Facility Working
    Group reviewed, approved, and validated the MILCON project in accordance
    with MAJCOM established procedures.

    SCP Project Review and Validation. An Air Force SCP did not review or
    validate the Duke Field MILCON project. DoD 4140.25-M states that the SCPs
    are to review and validate MILCON projects, as well as develop consolidated
    project priority lists. Specifically, the Manual states that it is the responsibility of
    the SCP to review, validate, and prioritize all continental United States fuel-
    related MILCON requirements prior to submission to the DESC Installation
    Planning and Review Board. The Air Force did not have an SCP with
    responsibility for fuel-related infrastructure until the Air Force Petroleum Office
    was established in October 1, 2001.



DESC Received MILCON Projects From MAJCOMs
    The SCP is responsible for forwarding a project prioritization list to the DESC for
    funding consideration in accordance with DoD 4140.25-M. DESC personnel
    stated that, historically, Air Force MAJCOMs submitted MILCON projects
    directly to the DESC because an Air Force SCP did not exist. DESC received

                                           5
     project priority lists from six different Air Force MAJCOMs in response to the
     FY 2000 MILCON project data call. DESC personnel also stated, however, that
     Air Force Installations and Logistics personnel at the headquarters level reviewed
     fuel-related MILCON projects before the DESC Installation Planning and Review
     Board considered the projects for funding.



Corrective Action Initiated
     During the audit, the Air Force took corrective action to properly identify and
     validate the fuel-related MILCON project requirement at Duke Field. In
     October 2001, AFRC submitted a new DD Form 1391 that documented the Duke
     Field requirement to support 2,300 barrels of fuel. The DD Form 1391 request for
     two 2,500-barrel storage tanks was not revised and was more than necessary to
     support the fuel inventory requirement. However, the project justification was
     based on economy and efficiency of fuel tank construction costs. DESC has
     responsibility for providing and supporting necessary bulk fuel-related
     infrastructure in accordance with DoD guidance, and therefore, for determining
     the economy and efficiency of MILCON requests. We believe that the
     October 2001 DD Form 1391 clearly states the minimum fuel requirement to be
     supported by the MILCON project, and gives DESC the accurate and necessary
     data for determining whether the infrastructure request should be considered for
     funding approval.



Summary
     The bulk fuel storage MILCON project requirement at Duke Field was inaccurate
     and never properly validated by installation or MAJCOM personnel. We are
     making no recommendations to cancel or suspend the MILCON project at Duke
     Field because we believe accurate and necessary requirements were properly
     identified and validated during the audit. However, procedures for validating
     MILCON projects at Eglin AFB and Headquarters, AFRC must be properly
     established and implemented to ensure that future project requirements are
     accurate and necessary.



Recommendations and Management Comments
     1. We recommend the Civil Engineer, Eglin Air Force Base, establish
     procedures to implement Air Force Instruction 32-1021, “Planning and
     Programming of Facility Construction Projects,” May 12, 1994, to
     demonstrate proper review and validation of bulk fuel-related military
     construction project requirements.



                                         6
Management Comments. Eglin Air Force Base concurred and stated that the
new procedures will be established by August 31, 2002.

2. We recommend that the Commander, Air Force Reserve Command
establish procedures to document:

       a. Proper review and validation of bulk fuel-related military
construction project requirements in accordance with Air Force Instruction
32-1021, “Planning and Programming of Facility Construction Projects,”
May 12, 1994, and Air Force Engineering Technical Letter 99-6,
“Programming Fuels Projects,” December 10, 1999. The procedures should
address identification and documentation of the minimum project scope
necessary to support the requirement.

        b. Future fuel-related military construction project requirements are
submitted to the Air Force Petroleum Office for review, approval, and
prioritization.

Management Comments. The Air Force Reserve Command concurred and
stated that the new procedures will be completed by July 1, 2002.

3. We recommend that the Commander, Air Force Petroleum Office
establish procedures to validate military construction project requirements
in accordance with policies outlined in DoD 4140.25-M, “DoD Management
of Bulk Petroleum Products, Natural Gas, and Coal,” June 1994. At a
minimum, procedures should verify whether adequate project requirement
validation was performed by the major command sponsoring the project.

Management Comments. The Air Force Petroleum Office concurred and stated
that the new procedures will be established by March 31, 2002.

4. We recommend that the Director, Defense Energy Support Center,
Defense Logistics Agency, modify existing procedures to require Air Force
Petroleum Center review and approval of bulk fuel-related military
construction and maintenance, repair, and environmental projects before the
projects are approved for funding.

Management Comments. The Defense Logistics Agency concurred and stated
that the Air Force Petroleum Center is currently performing the function and that
an engineer is being hired to manage the process.




                                    7
Appendix A. Audit Process

Scope
    Work Performed. We reviewed DoD and Air Force guidance for reviewing,
    validating, prioritizing, and submitting bulk fuel-related infrastructure project
    requirements and conducted on-site visits to determine whether the guidance was
    adequately implemented. We reviewed documentation for November 1988
    through November 2001 used to support current MILCON and MR&E projects at
    McChord AFB and Eglin AFB. Additionally, we reviewed methods used to
    prepare supporting documentation for MILCON and MR&E project requests at
    the two installations and at the major commands responsible for approving the
    projects.

    Limitation to Scope. We verified information documented on Military
    Construction Project Data forms (DD Form 1391) used to request construction
    projects. The MILCON project for bulk fuel storage at Duke Field documented
    the fuel inventory requirement for Duke Field and was supported by fuel issues
    and receipts data. We analyzed the fuel issues and receipts data and coordinated
    with DESC personnel to determine that the calculation performed by Eglin AFB
    personnel to determine fuel inventory was accurate. We did not, however,
    validate the accuracy of the Eglin AFB fuel issue and receipt data.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Infrastructure high-risk area.



Methodology
    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Universe and Sample. We identified the fuel-related MILCON projects
    submitted by the Air Force in FY 2000 for the FY 2004 Defense Logistics
    Agency Military Construction Program. We judgmentally selected projects with
    a Class 1 environmental status (those projects that will fix infrastructure currently
    out of compliance with Federal, state, or local environmental authorities) and high
    dollar-value bulk fuel storage construction projects. We identified a Class 1
    MILCON project at Eglin AFB; and McChord AFB had the highest dollar value
    bulk fuel storage project for the Air Force. We reviewed all fuel-related
    MILCON projects at those activities. As a result, our review included one
    MILCON project, valued at $10.3 million, at McChord AFB, and three MILCON
    projects, valued $9.2 million, at Eglin AFB. We also reviewed all 30 active
    MR&E projects, valued at $6.6 million, at McChord AFB and Eglin AFB.



                                          8
    Contacts During the Audit. We visited or contacted organizations within DoD.
    Further details are available on request.

    Audit Type, Dates, and Standards. We performed this economy and efficiency
    audit from March 2001 through November 2001, in accordance with generally
    accepted government auditing standards.



Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of the Air Force management controls over bulk fuel storage delivery
    systems infrastructure MILCON and MR&E projects. Specifically, we reviewed
    management controls over the review, validation, and submission process of bulk
    fuel infrastructure MILCON and MR&E project requirements. We reviewed
    management’s self-evaluation applicable to those controls.

    Adequacy of Management Controls. We identified a material management
    control weakness at Headquarters, Air Force Reserve Command, and Eglin
    AFB. Management controls for MILCON projects were not adequate to ensure
    that bulk fuel-related infrastructure MILCON project requirements were
    adequately reviewed and validated at the installation and MAJCOM levels, prior
    to submission to DESC for review and prioritization. Recommendation 1., if
    implemented, will establish controls at Eglin AFB to ensure bulk fuel
    infrastructure MILCON requirements are adequately reviewed and validated.
    Recommendation 2., if implemented, will establish controls at Headquarters,
    Air Force Reserve Command, to ensure bulk fuel infrastructure MILCON
    requirements are adequately reviewed and validated. A copy of the report will
    be provided to the senior official responsible for management controls in the
    Air Force.

    Adequacy of Management’s Self-Evaluation. Air Force officials did not
    identify bulk fuel infrastructure MILCON and MR&E project review and
    validation as an assessable unit and, therefore, did not identify or report the
    specific material management control weaknesses identified by the audit.




                                          9
Prior Coverage
    Inspector General
    Inspector General, DoD, Report No. D-2001-134, “Bulk Fuel Infrastructure
    Military Construction Project Review Process: Pacific,” June 4, 2001

    Inspector General, DoD, Report No. D-2001-040, “Bulk Fuel Infrastructure
    Maintenance, Repair, and Environmental Project Review Process: Pacific,”
    January 30, 2001

    Inspector General, DoD, Report No. D-2001-006, “Bulk Fuel Storage
    Requirements for Maintenance, Repair, and Environmental Projects at Fort Hood,
    Texas,” October 23, 2000

    Inspector General, DoD, Report No. D-2001-003, “Bulk Fuel Storage and
    Delivery Systems Infrastructure Military Construction Requirements for Japan,”
    October 13, 2000

    Inspector General, DoD, Report No. D-2000-164, “Bulk Fuel Storage and
    Delivery Systems Infrastructure Requirements for Yakima Training Center,
    Washington,” July 20, 2000




                                       10
Appendix B. Policy Guidance
   DoD guidance prescribes policy for bulk fuel storage and delivery systems
   infrastructure, documents the processes, and assigns responsibilities for managing
   the infrastructure.

   DoD Directive 4140.25, “DoD Management Policy for Energy Commodities
   and Related Services,” April 20, 1999. DoD Directive 4140.25 prescribes DoD
   policy for energy and related programs (for example, petroleum, natural gas, coal,
   and propellants). The directive states that the programs shall support DoD
   peacetime and wartime missions, and permit successful and efficient deployment
   and employment of forces. The directive also states that DoD Components shall
   minimize inventories consistent with peacetime and contingency needs.

            DLA Responsibilities. The Director, DLA, plans, programs, and budgets
   facility MR&E compliance of petroleum storage and distribution facilities; and
   construction of new permanent storage and distribution facilities. DLA must
   coordinate these functions with the Services and the combatant commanders.

          Military Responsibilities. The DoD Directive 4140.25 states that the
   Military Departments are to operate petroleum facilities under their cognizance.

   DoD 4140.25-M, “DoD Management of Bulk Petroleum Products, Natural
   Gas, and Coal,” June 1994. DoD 4140.25-M implements DoD Directive
   4140.25, prescribes policy guidance, and assigns functional responsibilities for
   integrated management of bulk petroleum products and associated bulk fuel
   storage facilities. The objective of integrated materiel management is to
   purchase, store, and distribute bulk petroleum products in an economic and
   efficient manner. DoD 4140.25-M states that the SCPs and the Combatant
   Command Joint Petroleum Offices are to review and validate MILCON and
   MR&E projects, as well as develop consolidated project priority lists. The Joint
   Petroleum Offices are responsible for overseas projects, and the SCPs are
   responsible for projects within the continental United States. The SCPs and Joint
   Petroleum Offices consolidate project priority lists and forward projects for
   consideration to DESC. The DESC reviews, validates, programs, and budgets
   funds for approved projects. DoD 4140.25-M details the MILCON and MR&E
   project submission cycle for DESC.

   Air Force Instruction 32-1021, “Planning and Programming of Facility
   Construction Projects,” May 12, 1994. Air Force Instruction 32-1021 provides
   guidance for developing facilities through the use of MILCON and minor
   construction. Air Force Instruction 32-1021 states that installation commanders
   will plan and program facilities to support their mission according to the
   MAJCOM guidance, ensure existing facilities are used economically and
   efficiently, and submit MILCON projects to the MAJCOMs. The Instruction also
   states that MAJCOMs will review and validate facility requirements and cost
   estimates.



                                       11
          MAJCOMs and installations must validate each MILCON project by
          taking the following actions:
              •    Verify the requirement that creates the need for the proposed
                   project…
              •    Confirm that the proposed project is the most cost-effective
                   means of satisfying the requirement
              •    Confirm that the DD Form 1391 [Military Construction
                   Project Data form] data is accurate and complete.

Air Force Engineering Technical Letter 99-6, “Programming Fuels
Projects,” December 10, 1999. Engineering Technical Letter 99-6 provides
guidance to civil engineering managers who program and manage fuel-related
MR&E, minor construction, and MILCON projects for which funding is the
responsibility of the DESC. The Engineering Technical Letter states that base
civil engineers must prepare documentation for both MILCON and MR&E, and
minor construction projects and that the documentation must
           . . . explain the project and the need. . . . Where there are obvious, less
          expensive options, explain why they were not used.                   Minor
          construction projects should have an economic analysis attached when
          there may be options.

The Engineering Technical Letter instructs base personnel to submit MILCON
and MR&E projects to the MAJCOM engineering personnel who review the
documents for completeness and forward them to DESC.




                                         12
Appendix C. Air Force Validated Bulk Fuel-
            Related MILCON Project
            Requirements
   Air Mobility Command, Scott AFB, Illinois, was the MAJCOM for McChord
   AFB. Air Force Special Operations Command, located at Eglin AFB, Florida,
   was the MAJCOM for Hurlburt Field. MAJCOM and installation personnel
   properly reviewed and validated bulk fuel-related MILCON requirements for the
   projects at McChord AFB and Hurlburt Field in accordance with Air Force
   Instructions and Engineering Technical Letter 99-6.

   McChord AFB MILCON Project. McChord AFB personnel submitted one
   FY 2000 MILCON project, PQWY033000, “Construct JP-8 Bulk Fuel Tanks,”
   for the FY 2004 DLA MILCON program. MAJCOM personnel identified the
   requirement based on FY 2000 Inventory Management Plan fuel inventory
   shortages at McChord AFB. McChord AFB personnel submitted a
   DD Form 1391 to construct two steel aboveground JP-8 fuel tanks, with 50,000
   barrels of fuel capacity each. The FY 2000 Inventory Management Plan stated
   that McChord AFB had a 15-day requirement to disperse 154,700 barrels of fuel.
   McChord AFB had 69,000 barrels of useable fuel storage. The project was
   required to correct an 85,000-barrel fuel shortage. The DD Form 1391 included a
   detailed cost estimate of $10.3 million. Air Mobility Command personnel
   coordinated with McChord AFB personnel to review and validate the project
   requirement in accordance with Air Mobility Command and McChord AFB
   established procedures.

   Hurlburt Field MILCON Projects. Hurlburt Field personnel submitted two
   FY 2000 MILCON projects for the FY 2003 DLA MILCON program. The two
   projects were FTEV973016, “Hydrant Fueling System,” and FTEV983011,
   “Construct Fuel Pier.”

           Project FTEV973016, “Hydrant Fueling System.” Hurlburt Field
   personnel submitted a DD Form 1391 to construct a 1,200-gallon per minute
   hydrant fueling system from Hurlburt Field’s bulk storage facility to a storage
   tank located on the East Apron through the use of two refueling trucks. The
   DD Form 1391 indicated that the project was necessary to support Air Force
   Special Operations Command mission and training requirements to quickly
   deploy manpower and material of the 20th Special Operations Squadron and
   two CV-22 Squadrons. The DD Form 1391 included a detailed cost estimate of
   $3.9 million. Air Force Special Operations Command and Hurlburt Field
   personnel demonstrated that they reviewed and validated the project
   requirement in accordance with Air Force Special Operations Command and
   Hurlburt Field established procedures.

          Project FTEV983011, “Construct Fuel Pier.” Hurlburt Field personnel
   submitted a DD Form 1391 to construct a petroleum, oil, and lubricants off-
   loading marine terminal pier with a pantograph arm and vapor recovery system in
   support of the mission requirements of the 16th Special Operations Wing.

                                      13
Hurlburt Field personnel initiated the project to address insufficient containment
on the current wooden pier found by the United States Coast Guard. The
DD Form 1391 included a detailed cost estimate of $2.8 million. Air Force
Special Operations Command and Hurlburt Field personnel demonstrated that
they reviewed and validated the project requirement in accordance with Air Force
Special Operations Command and Hurlburt Field established procedures.




                                    14
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Installations)
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, Air Force Reserve Command
Commander, Air Force Petroleum Office
Commander, Eglin Air Force Base

Defense Organizations
Director, Defense Logistics Agency
Director, Defense Energy Support Center

Non-Defense Federal Organization
Office of Management and Budget




                                          15
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          16
Air Force Petroleum Office
Comments




                      17
Air Force Reserve Command
Comments




                    18
19
Eglin Air Force Base
Comments




                       20
Defense Logistics Agency
Comments




                      21
22
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Garold E. Stephenson
Wayne K. Million
Deborah L. Carros
Kimberly M. Haines
James E. Miniter
Robert E. Smith
Todd L. Truax
